                           U.S. Department of the Interior
                               Office of Inspector General




       The ungrated openings in the uncompleted Frederiksted pier posed a safety hazard for
            those who used it. (Photo Courtesy of St. Croix Source - stx.onepaper.com)




                              Fish and Wildlife Grants
                          for Boating Access Facilities,
                      Government of the Virgin Islands

Report No. V-IN-VIS-0078-2004                                                       August 2005
CONTENTS
                   Background ................................................................................... 1
INTRODUCTION       Scope and Prior Audit Coverage................................................... 1


                   Overview....................................................................................... 3
RESULTS OF AUDIT   Construction Problems.................................................................. 3


                   To the Fish and Wildlife Service .................................................. 8
RECOMMENDATIONS    To the Governor of the Virgin Islands.......................................... 8


                   1. Monetary Impact...................................................................... 9
APPENDICES         2. Responses to Draft Report ....................................................... 10
                   3. Status of Recommendations..................................................... 15




                                             i
INTRODUCTION
                  The Frederiksted Fisherman’s Pier (Pier) on St. Croix was
BACKGROUND        extensively damaged following Hurricane Georges in 1998. The
                  U.S. Fish and Wildlife Service (FWS) funded rebuilding the
                  boating access facility to pre-hurricane condition through a Sport
                  Fish Restoration Program grant of $558,000 awarded in August
                  1999 to the V.I. Department of Planning and Natural Resources
                  (DPNR), Fish and Wildlife Division. Of the total grant amount,
                  $313,700 was initially allocated for the Pier, with the remaining
                  $244,300 allocated for boating access projects on St. Thomas and
                  St. John.1

                  In March 2001, the V.I. Department of Property and Procurement
                  (DP&P) awarded a $26,700 contract for architectural and design
                  services to CAPE Associates (CAPE). In conjunction with FWS
                  engineers, CAPE prepared plans and specifications for a structure
                  that could withstand a Category 5 hurricane and have an extended
                  life expectancy of 25 to 30 years, as required for the level of
                  funding. In October 2002, DP&P awarded ALJ Construction
                  (ALJ) a $287,000 contract to rebuild the fisherman’s pier. The
                  project was originally scheduled to begin in October 2002 and be
                  completed in February 2003.

                  The work covered by the construction contract included
                  (1) removing the remaining old Pier structure; (2) constructing a
                  new 80-foot-long and 10-foot-wide Pier; (3) removing two existing
                  reinforced concrete ramps; (4) constructing new concrete ramps
                  encompassing both sides of the Pier; (5) repairing an existing
                  concrete abutment; and (6) adding two light poles, signage, and
                  buoys.

                  The scope of the audit included construction activities and use of
SCOPE AND PRIOR   grant funds during fiscal years 2001 to 2004 related to the Pier
AUDIT COVERAGE    project. Our scope was limited in that some DP&P project-related
                  records were part of an ongoing investigation and could not be
                  made available to us. We were therefore unable to completely
                  determine whether procurement laws and regulations were
                  followed.


                  1
                   In April 2005, FWS officials told us that the grantee could transfer funds
                  between grant projects, up to a maximum of 10 percent of the grant amount,
                  without prior approval. But FWS would not reimburse the Virgin Islands for
                  any costs over the total $558,000 grant amount.



                                       1
To accomplish our audit objective, we interviewed officials of
DPNR, DP&P, and the Department of Public Works (DPW) and
reviewed correspondence, grant award documents, contracts,
change orders, completion estimates, and payment records at these
departments. We also reviewed related personnel records at the
Division of Personnel and visited the Pier in October 2004.

Our audit was conducted in accordance with the “Government
Auditing Standards,” issued by the Comptroller General of the
United States. Accordingly, we included such tests of records and
other auditing procedures that were considered necessary under the
circumstances. As part of our audit, we evaluated the internal
controls related to construction activities and use of grant funds to
the extent we considered necessary to accomplish the audit
objective. Internal control weaknesses identified in these areas are
discussed in the Results of Audit section of this report. The
recommendations, if implemented, should improve the internal
controls in these areas.

Neither the Department of the Interior’s Office of Inspector
General nor the Office of the Virgin Islands Inspector General has
performed any prior audits of grants for boating access facility
projects in the Virgin Islands.




                   2
RESULTS OF AUDIT
                   Despite efforts by officials of the Government of the Virgin Islands
OVERVIEW           (GVI), ALJ did not satisfactorily rebuild the Pier. ALJ’s
                   construction work was not acceptable, the project was not
                   completed, and GVI incurred at least $20,028 in additional project
                   management costs because of construction delays. We also noted
                   that GVI did not assess liquidated damages of at least $30,600
                   against ALJ for unauthorized construction delays or ensure the
                   project site was properly secured. As a result, the general public
                   and commercial fishermen on St. Croix were deprived of badly
                   needed boating access that was to be provided by the new Pier, and
                   the safety of potential users was put at risk by unsafe conditions at
                   the construction site. As of April 2005, GVI terminated the ALJ
                   contract, filed a claim with ALJ’s bonding company, and hired a
                   new contractor to complete the project. FWS expected that GVI
                   would satisfactorily complete the project by September 30, 2005,
                   or repay grant funds.

                   ALJ was the lowest of three bidders, but did not have marine
CONSTRUCTION       construction experience. In contrast, the two unsuccessful bidders
PROBLEMS           had such experience, and one of them had previously repaired the
                   Pier. Although GVI required ALJ to hire qualified subcontractors
ALJ Construction   for the marine portion of the work, ALJ did not do so. ALJ
Work Was Not       completed construction of the Pier’s basic structure, but failed to
Acceptable         meet construction specifications on three separate attempts to pour
                   the concrete boat ramps on the north and south sides of the Pier, as
                   follows:

                      ¾ The first attempt on July 1, 2003, was aborted after DPNR
                        told ALJ to stop work because of delays in applying a
                        critical anti-washout additive to the concrete mix and
                        unfavorable sea conditions. However, ALJ continued to
                        pour concrete for the South ramp. A DPNR representative
                        inspecting the site on July 17, 2003, found deficiencies,
                        including large washouts that exposed the structure’s
                        reinforcing steel rods. An independent DPNR consultant
                        concluded the North ramp was salvageable but the South
                        ramp should be removed and rebuilt. In September 2003,
                        FWS told the Commissioner of DPNR that changes to
                        current specifications could result in the Pier no longer
                        being eligible for funding under the Sport Fish Restoration
                        Program.




                                     3
                           ¾ ALJ removed the underwater section of the South ramp in
                             February 2004 and on March 9, 2004, attempted a second
                             underwater pour. DPNR inspectors found that ALJ’s work
                             did not meet required specifications, with the result that
                             washouts again occurred in the South ramp.

                           ¾ A third and final pour to join the North and South ramps
                             under the Pier occurred on April 3, 2004. A DPNR
                             inspector found washouts, and a FWS engineer reported
                             that work on the ramps did not meet project specifications.




                       Washouts in the new South ramp after the July 2003 concrete pour left the
                       reinforcing steel exposed. (Photo Courtesy of the Department of Planning and
                       Natural Resources)

                       GVI officials concluded that ALJ could not satisfactorily perform
                       the work and on April 14, 2004, DPW advised ALJ not to do any
                       further work on the ramps. Although DPW allowed ALJ to
                       continue other project work, ALJ did not return to the worksite.
                       DP&P terminated ALJ’s contract in November 2004.

Despite Extensions,    As the owner agency for the Pier project, DPNR was responsible
ALJ Did Not            for initiating and completing the work within applicable time
Complete the Project   frames after receiving FWS approval of the grant. The grant
                       period was originally August 1, 1999 to September 30, 2001.
                       Because of construction delays, FWS approved four extensions,
                       extending the grant period to September 30, 2005. GVI granted
                       ALJ authorization to delay completion of the project by a total of
                       12 months (February 2003 to February 2004) without penalty.
                       Even after these delays, however, ALJ did not complete the
                       project. DP&P eventually contacted ALJ’s bonding company,
                       which agreed to finance completion of the project. As of April
                       2005, GVI had awarded a new contract for completion of the Pier
                       to Zenon Construction, which was one of the original unsuccessful
                       bidders.



                                            4
GVI Incurred           CAPE’s contract for design and project management services,
Additional Project     originally awarded in March 2001, was reinstated in October 2002,
Management Costs of    after ALJ was awarded the construction contract. Because of
$20,028                lengthy construction delays, GVI extended CAPE’s project
                       management contract three times, most recently in June 2004.
                       CAPE was initially paid $6,675 ($1,669 per month) to administer
                       the construction contract for 4 months (October 2002 to February
                       2003). Extension of the construction contract also extended the
                       need for project management services, resulting in additional
                       project management costs of $20,028 from July 2003 to June 2004.

                       At the April 20, 2005 exit teleconference with FWS, officials
                       stated that additional project costs would only be allowed to the
                       extent that they fall within the scope and the $558,000 total award
                       amount of the grant for boating access facilities.

GVI Did Not Assess     GVI did not assess liquidated damages against ALJ for all of the
Liquidated Damages     construction delays. The construction contract set damages for
of at Least $30,600    construction delays at $100 per day to be deducted from ALJ’s
                       contract payments. However, instead of protecting the interests of
                       GVI, FWS, and potential users of the Pier, GVI officials often took
                       a supportive role with ALJ throughout the project period, giving
                       the company numerous opportunities to satisfactorily perform
                       under the contract. As of February 2004, GVI had paid ALJ more
                       than $213,000. The last approved project delay was through
                       February 2004. Given that the project had not been completed as
                       of December 31, 2004, GVI should have charged ALJ liquidated
                       damages of $100 per day for 306 calendar days (March 1 to
                       December 31, 2004), for a total of $30,600. This amount would
                       have more than covered the additional $20,028 in project
                       management costs incurred because of ALJ’s construction delays.

                       At the April 27, 2005 exit conference with DPNR, officials stated
                       that DP&P was in the processes of working with ALJ’s bonding
                       company to determine the total amount, possibly including
                       liquidated damages, that the bonding company would have to pay
                       to GVI in compensation for ALJ’s nonperformance under its
                       contract.

The Project Site Was   From September 2003 to at least October 2004, the project site
Not Properly Secured   remained unsecured. Specifically, in September 2003, a fisherman
and Was Unsafe for     reported to DPNR that several individuals had keys to the lock on
Use                    the chained fence restricting access to the construction site and that
                       commercial fishermen had intentionally cut the silt curtain to gain
                       access to the uncompleted ramps. A DPNR official reported that
                       he personally observed both vessels and trailers parked within the



                                          5
                  construction site behind the chained-off restricted area. Later, the
                  chain used to secure the site from vehicular access was no longer
                  in place. During a site inspection in November 2003, ALJ and
                  GVI officials observed the facility being used by the public to
                  launch and retrieve vessels. The officials also reported that two
                  fiberglass gratings used to cover openings on the Pier had been
                  removed and were missing and that reinforcing steel bars had been
                  untied and bent vertically to protrude dangerously out of the water.

                  In September and December 2003, DPNR reminded ALJ of its
                  responsibility for securing the site until the project was completed,
                  and directed ALJ to secure the site by December 8, 2003. ALJ
                  responded through its attorney, who wrote to DPNR that ALJ had
                  done everything within its power to avoid intrusions at the
                  worksite by unauthorized persons. The attorney also stated that
                  ALJ did not install the fiberglass gratings because incomplete work
                  beneath the Pier might expose the gratings to damage.

                  During a site visit in October 2004, we observed the facility still
                  being used by the public, although it was not yet completed. The
                  lack of the fiberglass gratings to cover the Pier openings created a
                  very dangerous condition for anyone attempting to use the Pier.

                  At the April 27 exit conference with DPNR, officials stated that
                  they had initially tried to keep the construction site secured but had
                  unofficially allowed local fishermen, who agreed to accept
                  responsibility and liability in the event of injury, to use the
                  uncompleted Pier and boating ramp. DPNR officials noted,
                  however, that when the new contractor begins remedial work on
                  the Pier, the worksite will again be secured from use until the work
                  is completed.

GVI May Have to   In September 2003, FWS informed DPNR that any changes to the
Repay FWS Grant   project specifications could result in the determination that the
Funds             project was no longer eligible for funding under the Sport Fish
                  Restoration Program. FWS site inspections in December 2003 and
                  April 2004 confirmed that construction was not being completed
                  according to specifications.

                  At the April 20 exit teleconference with FWS, officials stated that
                  they would inspect the project and review cost information when
                  the project was finished, and if they determined that the facility
                  was not completed by the September 30, 2005 deadline or was not
                  built in compliance with approved specifications, GVI would have
                  to repay the grant funds.




                                     6
At the April 27 exit conference with DPNR, officials stated that the
new contractor commenced remedial work on the Pier on April 26
and expected to complete all work within 3 to 4 weeks.




                  7
RECOMMENDATIONS
                   We recommend that FWS:
TO THE FISH AND
WILDLIFE SERVICE      1. Continue to coordinate with GVI to ensure adherence to the
                   approved plan of action for completing the Pier project
                   expeditiously and in accordance with specifications acceptable to
                   FWS.

                     2. Continue to closely monitor the progress being made by
                   GVI and its contractors to satisfactorily complete the project.

                       3. Require GVI to safeguard the construction site from access
                   by unauthorized persons until construction work is completed and
                   the Pier is certified as safe for public use.

                   We also recommend that the Governor of the Virgin Islands:
TO THE GOVERNOR
OF THE VIRGIN          4. Require DP&P to assess and collect liquidated damages
ISLANDS            from ALJ or its bonding company for construction delays beyond
                   February 2004, the last completion date extension approved
                   through contract change orders.

                   We received responses (Appendix 2) to the draft report from FWS
FWS AND GVI        and the Governor of the Virgin Islands. The May 24, 2005
RESPONSES          response from FWS concurred with Recommendations 1, 2, and 3,
                   and stated that FWS (1) approved revised plans and specifications
                   for completion of the project, (2) was receiving periodic reports
                   and photographs from GVI to document progress on the project,
                   and (3) was advised by GVI that a fence was erected and a “No
                   Trespassing” sign erected to limit access to the construction site.

                   The May 27, 2005 response from the Governor of the Virgin
                   Islands provided additional information on corrective actions for
                   Recommendations 1, 2, and 3, and indicated, regarding
                   Recommendation 4, that the Commissioner of Property and
                   Procurement had requested the Virgin Islands Attorney General to
                   provide assistance with the recovery of liquidated damages
                   estimated at $42,500.

                   Based on the responses, we classified Recommendations 1, 2, and
                   4 as resolved, but not implemented, and Recommendation 3 as
                   resolved and implemented (Appendix 3).




                                     8
APPENDIX 1 – MONETARY IMPACT
                                              Funds to Be Put
                     Finding Area              to Better Use


          Unassessed Liquidated Damages          $30,600




__________
Amount represents federal funds.




                                          9
APPENDIX 2 - RESPONSE TO DRAFT REPORT




                     10
     Appendix 2
     Page 2 of 5




11
     Appendix 2
     Page 3 of 5




12
     Appendix 2
     Page 4 of 5




13
     Appendix 2
     Page 5 of 5




14
APPENDIX 3 - STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference              Status                       Action Required

       1 and 2           Resolved, Not        Provide documentation showing that the
                         Implemented.         Frederiksted Fisherman’s Pier project has
                                              been completed in accordance with the
                                              September 30, 2005 extended grant deadline
                                              and the approved revised specifications.

          3              Resolved and         No further action required.
                         Implemented.

          4              Resolved, Not        Provide documentation showing that actions
                         Implemented.         have been completed to recover liquidated
                                              damages from the original contractor or its
                                              bonding company.




                                         15
